OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

TRISHA MEGGS PATE

ASHLEY MOODY Bureau Chief, Criminal Appeals
ATTORNEY GENERAL The Capitol
STATE OF FLORIDA Tallahassee, Florida 32399-1050

Telephone (850) 414-3300
Fax (850) 922-6674

May 5, 2021

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: Edward Ridley v. State of Florida,
Case No. 20-7898

Dear Mr. Harris:

The State of Florida recently received a copy of the petitioner’s petition for writ of
certiorari. Please be advised that the State of Florida will continue to follow its
long held position on these matters and will respectfully decline to answer petitions
filed in non-capital cases unless the Court requests a response. If the Court
requests a response, the State of Florida will provide one.

Respectfully submit
i}
i [Me

TRISHA ME@GS PA
Bureau Chief,
Tallahassee Criminal Appeals
Fla. Bar No. 0045489
(850)414-3300

 
    

cc: Edward T. Ridley, DC #570139
Wilcox State Prison

P.O. Box 397

Abbeville, GA 31001
